<html>
<title> - SUPPORTING SMALL ENTITIES THROUGH INVESTMENTS IN THE NATIONAL INFRASTRUCTURE: BROADBAND</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                   SUPPORTING SMALL ENTITIES THROUGH 
                    INVESTMENTS IN THE NATIONAL INFRASTRUC-
                    TURE: BROADBAND

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON UNDERSERVED,
                  AGRICULTURAL, AND RURAL DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 16, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-019
             Available via the GPO Website: www.govinfo.gov
             
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-823                      WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------              
            
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                         TROY CARTER, Louisiana
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jared Golden................................................     1
Hon. Jim Hagedorn................................................     2

                               WITNESSES

Ms. Peggy Schaffer, Executive Director, ConnectMaine Authority, 
  Augusta, ME....................................................     5
Mr. Dan Sullivan, President, Downeast Broadband Utility, Calais, 
  ME.............................................................     6
Mr. Matt Dunne, Founder and Executive Director, Center on Rural 
  Innovation, Hartland, VT.......................................     9
Mr. Tim Waibel, President, Minnesota Corn Growers Association, 
  Burnsville, MN.................................................    10

                                APPENDIX

Prepared Statements:
    Ms. Peggy Schaffer, Executive Director, ConnectMaine 
      Authority, Augusta, ME.....................................    30
    Mr. Dan Sullivan, President, Downeast Broadband Utility, 
      Calais, ME.................................................    37
    Mr. Matt Dunne, Founder and Executive Director, Center on 
      Rural Innovation, Hartland, VT.............................    46
    Mr. Tim Waibel, President, Minnesota Corn Growers 
      Association, Burnsville, MN................................    54
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Missouri Farm Bureau Federation..............................    60
    SBE - Small Business & Entrepreneurship Council..............    62
    Statement of Ranking Member Jim Hagedorn.....................    65

 
                   SUPPORTING SMALL ENTITIES THROUGH 
         INVESTMENTS IN THE NATIONAL INFRASTRUCTURE: BROADBAND

                              ----------                              


                        WEDNESDAY, JUNE 16, 2021

              House of Representatives,    
               Committee on Small Business,
                       Subcommittee on Underserved,
              Agricultural, and Rural Business Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jared Golden 
[chairman of the Subcommittee] presiding.
    Present: Representatives Golden, Carter, Delgado, 
Luetkemeyer, Williams, Hagedorn, Stauber, Tenney, and Salazar.
    Chairman GOLDEN. Good morning. I call this hearing to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time. Let me begin by saying standing House 
Committee rules and practice continue to apply during hybrid 
proceedings. All members are reminded that they are expected to 
adhere to these standing rules, including decorum. House 
regulations require members to be visible through a video 
connection throughout the proceedings so please keep your 
cameras on. Also, please remember to remain muted, unless you 
are recognized, in order to minimize background noise. And if 
you have to participate in another proceeding, please exit this 
one and log back in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party, and 
we will recognize that member at the next appropriate time 
slot, provided they return to the proceeding.
    For those members and staff physically present in the 
committee room today, we will continue to follow the most 
recent OAP guidance. Masks are no longer required in our 
meeting space for Members and staff who are vaccinated. All 
Members and staff who have not been are asked to wear masks and 
socially distance. I sincerely hope we all do our part to 
protect each other and our staff.
    In 2020, COVID-19 widened the digital divide and 
highlighted the importance of reliable and affordable broadband 
for American small businesses. Many small businesses shifted 
operations online to stay connected to their customers as 
people stayed home to slow the spread of virus. This digital 
adaptation proved to be crucial to small business success. 
According to a survey by the Connected Commerce Council, 72 
percent of small businesses increased their use of digital 
tools during the COVID-19 crisis. Unfortunately, small 
businesses without reliable broadband access proved to be at a 
significant disadvantage when it came to this digital 
transition.
    As a Representative of one of most rural districts in the 
country, I heard firsthand from many entrepreneurs about the 
struggles, the lack of access to high-speed broadband created 
during the pandemic. Although I would also note that that was a 
conversation that I had often with small business owners and 
many others around the district even prior to the pandemic.
    In my home State, roughly half of all road miles are 
considered unserved or underserved by broadband infrastructure. 
Statistics like these are not unique to Maine's Second 
Congressional District. Unfortunately, many communities across 
the country also struggle to access broadband at benchmark 
speeds. Broadband subscriptions continue to grow. However, 
rural and Tribal areas lag behind urban and suburban areas in 
broadband deployment. As a result, at least 25 million 
Americans still lack access to high-speed internet, many of 
which live in remote and rural parts of our country. This is 
known as the digital divide. Factors like low population 
densities, rugged terrain and fewer subscribers to spread 
deployment costs among have contributed to a lack of investment 
in broadband networks by private companies.
    Without access to high-speed broadband, small firms in 
these areas are at a significant disadvantage. From connecting 
with consumers to filling orders, a broadband connection is 
essential to the day-to-day operations of many Main Street 
businesses. This lack of access to high-speed broadband has 
proven to be an economic drain on many communities, impacting 
individual success in education, wealth, and access to 
opportunity.
    It is vital to the economic health of communities across 
the country and the Nation as a whole that we close the digital 
divide. As Congress considers legislative work to revitalize 
infrastructure, we have an opportunity to make the investment 
in broadband access.
    Meeting this opportunity will require Congress and the 
administration to work closely with State and local 
stakeholders and invest the resources necessary to make 
universally available broadband a reality. I hope that today's 
hearing marks the beginning of a good conversation between 
Committee members and stakeholders dedicated to closing the 
digital divide and empowering small businesses.
    I will now yield to the Ranking Member, Mr. Hagedorn, for 
his opening statement.
    Mr. HAGEDORN. Mr. Chairman, thank you for that.
    And it has been a few weeks, we have been on break. And on 
behalf of our members, we would just like to congratulate you 
and your wife on the birth of your new daughter and glad to 
hear everybody is healthy and doing well.
    Chairman GOLDEN. Thank you very much. I appreciate it.
    Mr. HAGEDORN. Thank you again, Mr. Chairman, for holding 
this hearing. It is very important. I am excited to hear from 
the witnesses, particularly Tim Waibel, who resident of 
southern Minnesota. And it is going to be a great hearing on an 
important issue.
    As a member of both the House Small Business Committee and 
Agriculture Committee, broadband infrastructure has been a top 
priority since being elected to Congress. According to USDA's 
Census of Agriculture, nearly 20 percent of the constituents in 
my congressional district lack reliable internet service. 
Unfortunately, without reliable high-speed internet, many 
constituents and businesses are at a disadvantage. Under the 
previous administration, significant investments were made, 
such as the American Broadband Initiative, which stimulated 
increased private sector involvement in broadband 
infrastructure, and it was a bridge to the gap in rural 
America. However, despite significant advances, many rural and 
Tribal areas still have limited or no access to broadband 
capabilities.
    The digital divide has only grown wider as broadband 
deployment in urban areas continues to outpace deployment in 
rural areas. Congress must work to find solutions to address 
this digital divide.
    While we can all agree that providing small businesses with 
the tools and resources necessary to thrive, examining policies 
to help businesses get back on their feet is a priority. One 
way that we can ensure that we meet this goal is to have better 
broadband connectivity, which has been found it be a key aspect 
in increased economic growth for rural businesses. In fact, 
according to a study by the Congressional Research Service, 
broadband access in adoption in rural areas is linked to 
increased job and population growth, higher rates of new 
business formation, increased home values, and lower 
unemployment rates. Industries, such as agriculture and 
healthcare, which are vital to rural America, have increasingly 
relied upon broadband connectivity as technology capabilities 
have developed. Telemedicine has provided many benefits to 
rural communities during the pandemic and also has become a 
reliable way to ensure rural areas receive timely quality 
healthcare. The continued expansion and modernization of 
telemedicine capabilities will be essential to ensuring rural 
communities that they have the equal access to high quality 
care.
    Additionally, many small businesses, farmers and ranchers 
in southern Minnesota are increasingly relying upon technology 
as they seek to strategically decrease input, such as 
fertilizer and fuel, while simultaneously increasing yields.
    Without the availability of high-speed internet, they would 
not be able to keep pace with modern technology. Programs such 
as the ReConnect Pilot Program, which was authorized in the 
2018 farm bill, have helped build out broadband infrastructure 
in rural areas that lack broadband access. This has helped make 
significant advancements in broadband infrastructure in my 
district and many others across the Nation. I was proud to 
support additional legislative efforts in the CARES Act and 
Consolidated Appropriations Act of 2021, which appropriated 
more dollars like ReConnect, and it helped to make progress.
    I am going to submit the rest of my statement for the 
record. I want to keep us on time. Thank you for holding the 
hearing. I look forward to hearing from the witnesses.
    Chairman GOLDEN. Thank you, Mr. Hagedorn.
    Just a quick moment to explain how the hearing will 
proceed. Each witness has 5 minutes to provide a statement, and 
each Committee member will have 5 minutes for questions. Please 
ensure that your microphone is on when you begin speaking and 
that you return to mute when finished.
    Now we will introduce our witnesses. Our first witness is 
Ms. Peggy Schaffer, executive director of the Connect Maine 
Authority, located in Augusta, Maine. She previously served as 
the small business advocate for the Secretary of State's Office 
and served as the Co-Chair of the Maine Broadband Coalition, a 
statewide group advocating for high-speed broadband.
    On behalf of my district and the State of Maine, we thank 
you for your dedication and welcome you to the Committee.
    Our second witness is Mr. Dan Sullivan, president of the 
Downeast Broadband Utility located in Calais, Maine. Mr. 
Sullivan has more than 40 years of experience in information 
technology, including as a small business owner and IT director 
from one of the region's largest employers. Downeast Broadband 
Utility, also known as DBU, is the first and only operating 
municipal broadband utility in the State of Maine. The network 
is owned by the city of Calais and the towns of Baileyville and 
Alexander.
    Welcome, Mr. Sullivan.
    Our third witness is Mr. Matt Dunne, founder and executive 
director of the Center on Rural Innovation located in Hartland, 
Vermont. Launched in 2017, the center is a social enterprise 
committed to supporting resilient economic development in rural 
America. Their sister organization--I am sorry. CORI's sister 
organization, Rural Innovation Strategies, provides strategic 
consulting to bring prosperity and investment to rural areas in 
the digital age. Mr. Dunne served in the Vermont State 
legislature, AmeriCorps, and Google's Community Affairs 
Division. He holds is B.A. from Brown University and is a 
lifelong Vermonter who lives on a 100-acre farm where he was 
raised.
    Welcome, Mr. Dunne.
    And the Ranking Member, Mr. Hagedorn, will introduce his 
witness.
    Mr. HAGEDORN. Thank you, Mr. Chairman.
    Our fourth and final witness is Tim Waibel, president of 
the Minnesota Corn Growers Association, one of the largest 
grassroots farm organizations in the country. Mr. Waibel, who 
hails from Courtland, Minnesota, in our congressional district 
in southern Minnesota is also a farmer with his wife and two 
sons. They grow corn, soybeans, and they raise hogs. Mr. Waibel 
has been on the State board of directors for the Minnesota Corn 
Growers Association for 9 years, serving in a variety of 
leadership capacities, including first vice president, 
treasurer, secretary, and now president. I think he has 
cornered the market there on the corn growers. His lifelong 
experience is not only a producer but advocate for the 
agriculture industry in general. And he will be extremely 
beneficial to our hearing today. And thank you, Mr. Waibel, for 
testifying and sharing your experience with us.
    Mr. Chairman, I yield back.
    Chairman GOLDEN. Thank you very much.
    We will now go to opening remarks from our witnesses.
    With that, I will recognize Ms. Schaffer for 5 minutes.

STATEMENTS OF PEGGY SCHAFFER, EXECUTIVE DIRECTOR, CONNECTMAINE 
   AUTHORITY, AUGUSTA, ME; DAN SULLIVAN, PRESIDENT, DOWNEAST 
    BROADBAND UTILITY, CALAIS, ME; MATT DUNNE, FOUNDER AND 
 EXECUTIVE DIRECTOR, CENTER ON RURAL INNOVATION, HARTLAND, VT; 
AND TIM WAIBEL, PRESIDENT, MINNESOTA CORN GROWERS ASSOCIATION, 
                        BURNSVILLE, MN.

                  STATEMENT OF PEGGY SCHAFFER

    Ms. SCHAFFER. Good morning. I am Peggy Schaffer, executive 
director of Connect Maine Authority. And I wish to thank you 
for this invitation to testify in front of the Committee House 
Small Business Subcommittee on Underserved Agricultural and 
Rural Development to talk about supporting small industries 
through investments in broadband infrastructure.
    Congressional support for bringing high-quality broadband 
to everyone in this country, rural and urban, is central to 
solving this problem. Connect Maine is a quasi-independent 
authority charged with bringing broadband to everyone in the 
State of Maine and making sure they can use it. Connect Maine 
was created in 2007 with a budget of about $1.5 million. We 
have two grant programs. One is for community planning, and one 
is for infrastructure. Over the past 12 years, we have provided 
about $12 million in infrastructure grants to ISP, attracting 
about $15 million in match from companies and communities.
    Last summer, Maine voters approved a $15 million 
infrastructure bond, and just this past month, we awarded $8.6 
million of those funds to 20 projects that will serve 8,500 
households, matching $16 million in company and community 
funds.
    In 2016, we started our community planning process. These 
are small grants that help communities plan how to expand 
broadband service in their area. Over 160 communities engaged 
this in process so far. In Maine and nationally, broadband 
infrastructure is a road-by-road battle. Where you live really 
matters. A neighbor half mile from you might have good service, 
but bringing that same service to your end of the road might 
cost $30,000 or more. Identifying these gaps is an essential 
part of the community planning process.
    Because of the well-known problems with the accuracy of the 
FCC data, many States have undertaken their own efforts to get 
better data. Georgia, Pennsylvania, Alabama, Washington, 
Minnesota, Maine have all developed our own mapping and data 
layers. These are just the few States frustrated with the 
inability to understand who has service and who does not.
    Broadband is a very personal service. It is how you connect 
with your family, healthcare, education, grocery shopping, and 
work. Maine communities, in fact communities across the 
country, realize that high-quality broadband connection is 
central to their future. Broadband is the lifeline for every 
community in this country, large or small. Our planning grants 
act like sticky tape. It gives the community something to grab 
on to and helps the ISP see a viable business case to bring 
broadband to that area. Once people begin talking with their 
neighbors about this critical infrastructure, they realize that 
everyone in their community needs to have access to the service 
and they understand the importance of affordability. This deep 
granular drive into what communities want drives State plans 
and data. It is also why so many small ISPs have aggressively 
expanded their footprint with fiber. Providers and communities 
seek solutions that will outlive the costs incurred. No longer 
are we investing in infrastructure that will need to be rebuilt 
in 20 years. We have found several programs are ill-suited to 
meet community needs or interests in Maine. Examples of this 
are the USDA grants through ReConnect and the recent FCC Rural 
Development Digital Opportunity Fund.
    Four projects were awarded ReConnect grants in early 2020. 
These are small projects that should be a 6- to 8-month build. 
None of these projects have started because of the bureaucracy 
one the USDA. If these projects had been funded through a 
straight grant, they would have been lit and serving people 
right now, not some time in 2022. Projects all across the 
country are having similar unneeded delays. There is one small 
community in Lincoln County that was denied a USDA grant 
because their area was auctioned off in satellite service in 
the FCC's RDOF auction. They are now not eligible for any other 
Federal funding. The town has been working for 3 years to 
develop a solution to bringing affordable service to everyone. 
Federal funding should not block that effort.
    If broadband infrastructure is going to achieve its 
promise, we need to make sure Federal funds flow to the 
solutions these communities want. That is why the community--
the Capital Projects Fund and the American Rescue Plan is so 
exciting. It puts the funds closest to community efforts 
through a State program. States have proven they are up to the 
task of efficiently and effectively delivering the use of these 
funds to build that infrastructure. Sixteen States awarded $644 
million in the Coronavirus Relief Fund to build out networks 
that were lit in under 6 months. The American Jobs Plan also 
offers great promise to close this connectivity and 
affordability gap, but it really, really matters how the funds 
for infrastructure are distributed and who owns the 
infrastructure. There are hundreds of successful models of 
public-private partnerships to build this infrastructure. There 
is no one model because there is no one solution. It requires a 
flexible strategy, and flexible strategies are just not what 
the Federal Government does well.
    State broadband programs have proven their worth. Our 
understanding of the problems, the locations, and our ability 
to craft solutions that fit our communities is central to our 
effectiveness. Funding for the infrastructure through the 
American Jobs Plan should flow through State and State programs 
to provide the greatest benefit and the fastest affordable 
connectivity to Maine people.
    Thank you for your time and consideration. I would be happy 
to answer your questions.
    Chairman GOLDEN. Thank you, Ms. Schaffer.
    Mr. Sullivan, you are now recognized for 5 minutes.

                   STATEMENT OF DAN SULLIVAN

    Mr. SULLIVAN. Good morning, Congressman Golden and Ranking 
Member Hagedorn. Thank you very much for this opportunity to 
discuss the DBU project.
    My name is Dan Sullivan. As mentioned, I was former IT 
director at the Woodland Pulp and St. Croix Tissue pulp mills 
in Baileyville. I have also been in technology for 40-plus 
years and now presently am the president of Downeast Broadband 
Utility.
    Calais and Baileyville had a problem: terrible expensive 
broadband options. The towns agreed to ban together by way of 
the local agreement to explore economic development ideas, and 
fiber came to the forefront. We had discussions with local 
leaders and our citizens, rotary clubs, chambers of commerce, 
town meetings. We hung posters. We did everything we could 
think of to bring people into the room to discuss what could or 
could not be done.
    It was the overall decision by all these groups that we 
would look, search out a fiber-to-home solution for our two 
towns. So the two towns agreed to fund a feasibility study to 
see if this was even possible. The results came back and said, 
yes, it indeed was. So the towns again funded the cost to build 
the construction to see how much it would cost to do it. We had 
unanimous support from both the towns.
    The network is paid for by subscribers to the network, not 
taxes raised. That is the beauty of this financial model. The 
need in these towns is so great and people want it so bad that 
our subscriber rate is going through the roof. So this will be 
paid for by the people who buy the service, not by the citizens 
of these towns. But, uniquely, the citizens of these towns will 
actually own the infrastructure.
    We began construction in 2018 and completed in 2020. Then 
the town of Alexander--which is next to Alexander, asked to 
join us. We approved them. They are now being constructed. They 
will probably be completed the end of December. Just last week, 
I met with Indian Township, our local Indian reservation. They 
have too voted to join DBU and are now proceeding with that. 
Construction will begin shortly.
    On top of that, 2 days ago, Princeton contacted me. I had a 
meeting with them. They too have voted unanimously to try to 
join DBU, and the town of Cooper will be doing the same thing 
in July. So you can obviously see there is an awful lot of 
demand out.
    So why did we do this? We did it because our existing ISP 
options were insufficient, unreliable, expensive, and in many 
cases not even available. We approached the existing ISPs and 
offered to help them fund a buildout to bring fiber to our 
towns, businesses, and homes. They refused. They weren't 
interested. So local businesses and residents universally 
complained about how slow and expensive broadband was.
    And Washington County's largest employer, St. Croix Tissue 
and Woodland Pulp, where I worked for many years, was very 
interested in this solution. And I would like to read a brief 
statement by the mill's manager. He said, quote: Affordable 
access to symmetrical broadband via fiber is a game changer for 
our area. It has increased property values, facilitated remote 
work and learning, while attracting new residents to our 
communities. From my perspective as an executive at Washington 
County's largest employer, fiber-based broadband has proven to 
be a valuable recruiting tool to attract technical talent to 
our area and business. In addition, it has helped our employees 
to effectively work remotely through this pandemic. Prior to 
the founding of the Downeast Broadband Utility, our area's 
access to this vital service was completely insufficient, 
unquote.
    We knew from our research that a fully fiber network was 
what we needed to do here to build a future-proof solution for 
our area. And Maine's home rule provision in Maine's 
Constitution allowed us to proceed with that. So we tapped into 
our Yankee spirit, and DBU was born.
    What did we build? This is a mouthful, but we built an open 
access, dark fiber, home-run network. Each subscriber receives 
a single dedicated fiber to their home or business. This 
ensures had a 100-plus year future-proof solution. Science has 
not yet reached fiber's capacity limits. They don't know how 
fast they can make it work. And once the fiber is installed on 
these poles when technology changes, and the technology 
improves, only the laser equipment in our communication 
cabinets have to be upgraded. The existing fiber cable will be 
viable for those 100-plus years.
    As a contrast, cell towers need to be climbed and 
satellites relaunched to keep up with changes in technology. 
These technologies do not provide a future-proof model, are 
impractical, expensive, contribute to mountains of space junk. 
And all these costs are passed down to the consumer.
    Now our network is open to all ISPs, even the ones that 
turned us down. We basically turned their argument of low-
density population not being an affordable way to do this 
upside down because we paid for the construction, the 
maintenance, and the operating costs. We have taken three legs 
off their stool to provide this service, and they are welcome 
to join us, and I hope they do.
    DBU is a utility much like roads, water, sewer. And it is 
owned by citizens of these towns. We determined about a 30 
percent tick rate from Calais and Baileyville will make the 
plan viable. We are presently at 23 percent in the midst of the 
pandemic and soon expect to pass 30 percent and beyond. We 
estimate Alexander and Indian Township to a 80 to 90 percent 
tick rate as their broadband situation is more dire. And here 
is the real caveat to all of this, the caveat to the ability of 
benefits, the base fiber internet package for the by 100/100 
megabit connection is $59.95 with no set up fees, no router 
fees, no contract fees. And no data caps. In the poorest county 
in the State of Maine, we have the fastest internet in the 
world at the most reliable cost.
    So, in conclusion, I would like to say, Maine and our 
Nation have paid for inadequate solutions to our country's 
dismal broadband for decades, only to be still treading water 
and, in some instances, drowning. An undeniable fact is that 
fiber is the most future-proof, cost-effective way to build 
ubiquitous broadband for our Nation for the next 100-plus 
years. Municipalities owning that physical network not only 
ensures competition but lowers cost, provides faster, more 
reliable speeds, and it solves the problem. The backbone of the 
internet is fiber. The middle mile is fiber. It has only been 
this last mile to the business and consumer that has been 
relegated to copper or, even worse, wireless, and only because 
it is more profitable for cable and phone companies to keep 
using their 19th century technologies rather than investing 
completing this fiber network. These companies are private and 
deserve to invest their dollars as they see fit.
    Chairman GOLDEN. Mr. Sullivan.
    Mr. SULLIVAN. We have no argument with that. It is our 
position that taxpayer funds need to be--I am almost done--need 
to be 100 percent directed towards finishing the home solution. 
We really appreciate your Subcommittee's work on this. We hope 
that we can contribute with you to help solve this problem for 
Maine and the Nation.
    I will take any questions that may be out there. Thank you.
    Chairman GOLDEN. Perfect. Thank you.
    Next we will recognize Mr. Dunne.
    Mr. Dunne, you are muted still.

                    STATEMENT OF MATT DUNNE

    Mr. DUNNE. Apologies.
    Chairman Golden, Ranking Member Hagedorn, and members of 
the subcommittee, thank you for this opportunity. My name is 
Matt Dunne, and I am the founder and executive director of 
Center on Rural Innovation, known as CORI, a nonprofit action 
tank started in 2017 to close the rural opportunity gap. Today, 
we are working with a network of small towns across the country 
to help them become successful in economic development and 
entrepreneurship in the 21st century. This ranges from helping 
communities build world-class broadband, facilitating 
technology training, supporting accelerator programs, and 
investing in scalable small businesses.
    The rural urban divide that has emerged since the Great 
Recession was driven by automation, globalization, and a 
decline in rural entrepreneurship. By January of 2020, before 
the pandemic, less than half of all rural counties had returned 
to their pre-recession employment levels as rural businesses, 
large and small, struggled to regain solid footing. The COVID-
19 shutdown only exacerbated the problem for many rural small 
businesses, particularly those dependent on tourism.
    Driving this divide was the fact that high-paying, 
resilient digital economy jobs like computer programmers, 
cybersecurity analysts, IT specialists, and others are not 
distributed equally across the country. Rural America 
represents 15 percent of our nation's workforce but only 5 
percent of the digital economy jobs. It doesn't have to be this 
way. In the age of the internet, there should be no limit to 
where digital economy jobs and startups can take place.
    The pandemic has only reinforced what we in rural America 
already knew: Broadband is critical infrastructure. It is as 
vital to equity and prosperity as electricity and 
transportation. For businesses, it was nothing short of a 
lifeline as Main Street companies tried to quickly shift to 
online ordering and delivery. While some businesses and workers 
could pivot to e-commerce or transition to remote work, unequal 
broadband access left the rest, so many of them in underserved 
rural areas, struggling to get by. But our awareness of the 
issue has created a moment in time that resembles one our 
nation faced nearly a century ago, when leaders realized that 
unequal access to electricity prevented regions of the country 
from being able to thrive.
    The good news is that like the rural electrification 
effort, there are models for bringing world-class broadband to 
rural places like the one that Mr. Sullivan has been so deeply 
involved with. In fact, at least 10 million rural Americans 
already live in Census tracts with gigabit-speed broadband. 
These communities built networks well beyond the FCC minimum 
standards for broadband because they understood that level of 
service is already on its way to becoming obsolete. As a 
result, they are ready to participate in the digital economy of 
today and meet the demands of the future. They invested in the 
infrastructure that can do both.
    The question before us now is, are we going to go do what 
is necessary to generate broadband that supports the businesses 
of today and tomorrow? Without it, millions of underserved 
rural Americans and small businesses can't engage with 
streaming content, cloud-based services, and video conferencing 
applications that have become part of everyday life. That is 
why it is critical that future funding should prioritize 
delivering a minimum of 100 megabits per second upload and 
download speeds and building networks capable of scaling to a 
gigabit or more. To do otherwise is only setting ourselves up 
for a rural-urban divide that reemerges 5 years from now 
despite a massive infrastructure investment.
    COVID has opened people's eyes to the possibility of 
working where they want to live rather than living where they 
need to work, including an incredible return to small-town 
America. But this is only possible if rural areas can achieve 
the same internet speeds as their urban counterparts. Doing so 
would enable entrepreneurs and small businesses in rural places 
to access markets anywhere in the world and be resilient to 
events like the pandemic that forced so much activity online.
    We at CORI know plenty of small towns that are proving this 
is possible, places that invested in gigabit-speed internet 
broadband or are leveraging their current broadband to make 
successful businesses emerge. In Taos, New Mexico, a program to 
help local businesses build e-commerce websites during the 
pandemic helped some see revenue increases by 10 percent. In 
Wilson, North Carolina, a former auto repair specialist 
developed a software platform called Shyft Auto to solve the 
inefficiencies he knows plague the service shops everywhere. 
They are receiving investment and are growing. In Red Wing, 
Minnesota, the robotics company Poultry Patrol was able to test 
its prototype in the field thanks to the upload and, download 
speeds possible with the region's high-speed broadband network.
    This is a moment unlike any we have seen before in the 
internet age. The funding currently being considered to boost 
broadband deployment expansion is vital to ensure every 
innovator and small business person can take part in the 
digital revolution and reach their full potential wherever they 
live.
    Thank you for your time and consideration of this important 
issue. And I am happy to take any questions you may have.
    Chairman GOLDEN. Thank you.
    And, finally, Mr. Waibel, you are recognized for 5 minutes.

                    STATEMENT OF TIM WAIBEL

    Mr. WAIBEL. Thank you, Chairman Golden, Ranking Member 
Hagedorn, and the members of this subcommittee. Thank you for 
holding this hearing and letting me testify.
    My name is Tim Waibel. I am a farmer from Courtland, 
Minnesota. It is a town of 611 in Representative Hagedorn's 
district. My wife and I have raised five children. We have six 
grandchildren and are looking forward to three more coming in 
2021. My wife and I both feel blessed that we have been raised 
in rural America, and we want them same blessings for future 
generation. I know that many of you share this feeling.
    The pandemic has taught us a lot of lessons. One is that 
people living in the cities grew to appreciate the advantages 
of living in rural America, and many picked up stakes and moved 
here. Over the years, I have been saddened to see our 
communities raise wonderful kids only to see them go off to 
college and never return to raise their families here, instead 
moving to the cities and suburbs. A town like Courtland has 
suffered due this and not just economically; we have lost a lot 
of talent. And I think that those of us who have lost--excuse 
me. I think that those who have lost to the cities we have also 
been deprived of some life-enriching experiences that only a 
small town can provide. So the thought that at least some 
silver lining might come with this tragedy of the pandemic may 
be a rebirth of towns like Courtland, which brings me to my 
second lesson.
    We have all heard stories remote learning. While there is 
more of it, I am speaking here on the issue on the heart of 
availability of broadband. Kids growing up in rural areas who 
do not have access to decent internet service are at a 
disadvantage. Senator Klobuchar mentioned that one student went 
to a local liquor store parking lot because that was the only 
place that they could get internet service. This is not an 
isolated problem. It is a problem for anyone who lives and 
works in rural American communities because it impacts 
education, business, healthcare, and even farming. Lack of 
high-speed internet access is a serious obstacle to the rebirth 
of rural America I am hoping for. I am gratified at this time 
when there is so much partisanship, that there is a bipartisan 
consensus on the need to look into significant new investment 
in broadband.
    But as you know, throwing money at a problem doesn't always 
fix it. Billions of dollars have been spent on expanding 
broadband internet, but efforts have still come up short. So I 
hope that you will take into account a few points from my 
perspective as a lifelong rural resident. First, it matters who 
is providing the broadband to our rural communities? Do they 
have a real stake in rural America? Do they have a proven track 
record in serving rural America? And do think have boots on the 
ground to get the job done?
    From my vantage point, the Department of Agriculture and 
rural electric cooperatives and similar entities with a long 
history of working with the USDA check these boxes. But that is 
not where the lion's share of the Federal dollars have gone. 
Billions have gone to other Federal agencies to stand up 
programs using other broadband providers that are often 
protected from competition, even if they provide substandard 
service. My understanding is that there is an interest by some 
in standing up another Federal program, but I do not believe we 
are going to get any different results than we have had going 
down the same path.
    There is fierce competition amongst various agencies and 
providers in regard to who gets to carry the important mission. 
But addressing the needs of rural America, including broadband, 
is a mission of the USDA, rural electrics, and the like. And, 
yet, the dollars that we have spent have paled in comparison to 
the dollars under other programs where the providers do not 
check all the boxes that I mentioned earlier. Had FDR taken 
this approach for rural electrification, God knows how long it 
would have taken to get power to our farms.
    I would like to recognize Representative G.T. Thompson, who 
has brought a very thoughtful bipartisan broadband bill that is 
worth your consideration because it recognizes the points that 
I am making here today. The second point is there are gaping 
holes on the map in terms of people with zero service. But 
there are also even more holes in the map where people have 
terrible broadband service and pay an arm and a leg. I feel I 
fit in that category. Both problems need to be addressed. 
Setting high goals for service in this process will be 
important. And if the providers are not meeting the goal, they 
ought to open it up for competition.
    And, finally, in my perspective as a farmer, remember that 
it is not just about location served, but it is areas served. 
Why is that important? Because my farm not only needs the kind 
of internet that a business needs in town, we also have mobile 
offices. My tractor, combines, and so on and so forth talk back 
and forth where I need to be able to upload data as I work the 
fields. This is a vital efficiency in providing food, fuel, and 
fiber, but is also critical in caring for the natural resources 
promoting soil health, clean air, water, and the reduction of 
CO2. Agriculture amounts for a very small percentage of CO2 
emissions and is already sequestering carbon, but we are glad 
to help sequester carbon using tools voluntary incentive-based 
tools. One such tool is high-speed internet.
    So, as you carry out the important work in this issue, I 
hope my perspectives are helpful. Thank you for letting me 
testify. If you have any questions, I can try and answer.
    Chairman GOLDEN. Thank you, sir.
    And I appreciate each of you for being here today to talk 
about connecting rural America.
    We will now move to 5-minute questions. And I will begin by 
recognizing myself.
    Mr. Waibel, I would just point out, I think you probably 
have a lot in common with Mr. Sullivan, who also talked about 
the high cost of some of these programs that have not been 
nearly as effective as they should be in delivering good 
access, the kind of access that you have spoken about and that 
Mr. Sullivan has also talked about.
    I had to note too, sitting here, Pete, thinking last 
Congress, we held a field hearing--you held in Minnesota, and 
Jim joined us. I forget the town. What town were we in?
    Voice. [Inaudible.]
    Chairman GOLDEN. Stauber. That is hilarious.
    The economic case for doing something here speaks for 
itself. I will just say we were at a machine precision--
precision machining shop there where they were talking about 
how they couldn't really expand the business and in fact might 
have to move it into a more suburban or rural area if they 
didn't have access to broadband. So it is about protecting jobs 
and creating the opportunity to expand.
    And then Congressman Stauber came up to Maine. And we had 
very similar conversations about how important this is in rural 
Maine. So a lot of similarities between the two.
    Mr. Sullivan, I thought I would just start with you. Maybe 
you could take a little time and get more indepth about what 
are the issues that we came across in your community in looking 
at some of the Federal programs that are out there, Federal 
dollars, grants, and other things that just weren't workable in 
Calais and Baileyville, and as a result, why did you end up 
going with this very local solution?
    Mr. SULLIVAN. I think it was alluded to by some of the 
other speakers. Some of the Federal programs are quite onerous 
and time-consuming in order to be able to make something 
happen. And there is a lot of abilities to trip along the way. 
And the need was so dire in our area that we decided to--we had 
such unanimous support from the citizens to be able to go and 
finance this operation; we decided to proceed ahead with it, 
rather than wait out the infrastructure rules. To Peggy's 
point, there is a lot of roadblocks in the way there that kind 
of slow these projects down.
    And also I will say that the Federal description of 
broadband, for years, they have been at this 25/3 number, which 
is completely inaccurate. That is not broadband by any stretch 
of the imagination. So we decided to try to step over those 
hurdles, if possible, and we were able to do it.
    Chairman GOLDEN. Thank you. I appreciate that.
    I don't know if was you, Ms. Schaffer, who had in your 
written testimony or maybe it was someone else, the example of 
Cranberry Isles, where there is such a--first, a Federal agency 
comes and announces that there is going to be broadband brought 
to the community through a grant, and then, years later, it is 
not there. I think Senator Collins from Maine has been working 
on finally getting a solution. But in the interim, they took it 
upon themselves to fix it, I am sure working with the State. 
But could you talk a little bit about that but also just think 
about what Dan said? What other examples do you have out there 
of inefficiencies or just bureaucracy of those programs being 
unworkable, and how have you helped?
    Ms. SCHAFFER. Well, I think one--the place you went to 
visit when you did your field visit was Roque Bluffs, and they 
got a USDA grant in I think it was December of 2019, official 
announcement in early 2020. They still have not built a thing. 
It is not that big a town. I think the bill was under a million 
dollars. They have been hit by roadblock by roadblock. And it 
is just when you look at--if you compare that, for instance, to 
Cranberry Isles, who really started out on their own, and then 
USDA came in late with the funding. Cranberry is built. It was 
built before the USDA funding came through. And now there is 
this discussion about who pays for what. But the process of the 
USDA does not really work for small towns. It really doesn't 
work for municipal networks. It doesn't work. And part of that 
is it is a one-size-fits-all solution. So, whether you are 
building a $20 million grant network or whether you are 
building a million-dollar network, they don't downsize it in a 
way that makes it or right size it in a way that makes it work 
for small towns. And so that for us has been a major barrier.
    The other barrier for the USDA funds is they have been--you 
have to have a service of under 10/1 to be qualified. And one 
of the things I frequently say is you have to go through the 
willies to get to the wags (ph). So sometimes you have to serve 
people who have some level of service before you get to people 
who have gotten little service. And the USDA's standard of 10/
1, which is lower even than the FCC, which is just 
unacceptable, it doesn't recognize that. And it also sentences 
people who have--who are just a little better than 10/1 to 
nothing, to no support and no help. And that kind of structure 
doesn't work when you are trying to bring service to rural 
America.
    Chairman GOLDEN. Thank you. So we will dig in a little 
further on some of these things, but it sounds like you are 
calling for greater flexibility in these programs at the very 
least.
    With that, I will turn it over for 5 minutes to Mr. 
Hagedorn.
    Mr. HAGEDORN. Thank you, Mr. Chairman. I agree with you. 
And this is just basic infrastructure issue. It is quality of 
life for the folks in rural areas. We need to make sure all 
Americans have the same access and opportunities.
    And my friend Mr. Waibel from southern Minnesota makes a 
good point. I mean, if we don't have these types of services, 
it is going to be hard to retain the folks in our rural 
communities and certainly to attract them in, even if we have 
great jobs and that type of thing.
    Mr. Waibel, really quickly if you could help some of the 
folks understand exactly what the farmers go through and their 
needs are in the digital age. I know for instance, hog 
operators might have an automated system to feed their hogs 
which would obviously require a lot of work on the internet. 
But when you do your duties, your planning and things like 
that, can you kind of fill us in about what is going on out 
there and why you need a good broadband connection?
    Mr. WAIBEL. Certainly. Thank you will for the question. So, 
in the fall, when we harvest, we work with certain vendors, 
fertilizer people, so on and so forth, that they can follow us 
in the field, and they know exactly when we are done harvesting 
a field so they can come and spread fertilizer and so on and so 
forth. There is no phone calls. They know exactly what needs to 
be spread because of prior meetings and so on and so forth. So 
it just saves a lot of time in that aspect. And the same way 
with information shared by our harvesting machines, it goes 
directly to people that we work with. They know exactly what we 
have seen and they can dig deeper into it. So certainly if we 
need to change something for the coming year on an application 
we can do so real quick and a lot of things. Everything is 
connected now on the farms. It is amazing. I never thought I 
would witness something like that in my lifetime.
    Mr. HAGEDORN. I agree with you. When you talk about, 
especially in rural communities, you trust the USDA, you trust 
the local companies, the REAs and others to deliver the 
services that has been your experience. Do you want to go 
further on that, or has enough been said?
    Mr. WAIBEL. I do believe the reason why I am a big fan of 
the REAs is because of the fact we have local boards, local 
people that we know that serve on these boards. And they are 
going to look out for, number one, the most cost-effective ways 
to deliver that service and, number two, what is good for the 
community.
    Mr. HAGEDORN. Ms. Schaffer, if I understand you, you are 
criticizing USDA and others because they are trying to focus 
most of their attention on making sure everybody is at a basic 
level so they have some level of service. I think if you take 
the moneys and start spreading them around in order that 
everybody has 100/100 or whatever before people can get to some 
decent level of line speeds, that wouldn't seem fair to me. 
What do you say to that?
    Ms. SCHAFFER. You know, there is--so you can figure this 
out through scoring on a grant process. So, instead of defining 
in the application of who is eligible and who is not, you can 
give extra points to a project that starts at essentially 
nothing and brings them up to something. And that kind of 
process allows for you to actually build out to more of the 
communities and make sure that all the communities are on an 
equal footing.
    And so I think when you define it in your eligibility 
standards, you limit who is eligible. But if you can do it 
through a scoring process of giving more points in an 
application for people who are serving people who have worse 
service than others, then you can accomplish the same thing, 
but you also get to serve more of that community. So, instead 
of bringing a tiny little piece of that community to the modern 
world, you can bring the entire community up. And I think to 
me, that is the important piece thinking about, not just in the 
eligibility but really looking at how you score these projects. 
And that gets rid of some of this concern about what is 
traditionally called overbuilding.
    I will say, in this country, we have much more interested 
policywise in preventing people from getting two kinds of 
service than making sure everybody has a service. So that is 
what when you limit it to 25/3 or 10/1, that is what you end up 
doing.
    Mr. HAGEDORN. It just seems to me that people who have no 
service--I mean, this is why the government is involved in 
this. This is why we are all together in a bipartisan fashion, 
we want to make sure people have some level of basic service. 
And I think that is where we should focus our attention. If we 
can get people to higher speeds down the road, that is all well 
and good. And maybe a private sector and others will help us 
out a little bit more, but I think what Mr. Waibel and others 
have been saying, and I agree with, that we should focus on 
those who have no connectivity or have speed so slow, that they 
really aren't able to compete and participate like the vast 
majority of the people across the country.
    So, with that, I yield back. Thanks, sir.
    Chairman GOLDEN. Thank you.
    Next, we will recognize Representative Roger Williams, Vice 
Ranking Member of the Committee.
    Mr. WILLIAMS. Thank you, Mr. Chair.
    Throughout my district in Texas, I constantly hear from 
constituents about unreliable or complete lack of internet, and 
that is in Texas. Unfortunately, many of the Federal broadband 
dollars are invested in the areas with the lowest cost of 
deployment, rather than the areas most in need. This has led to 
many rural areas of the country continually being left behind 
in the digital economy as we have heard this hearing. That is 
why I have introduced the bipartisan Eliminate the Digital 
Divide Act, that would give money directly to the States to 
decide where the greatest need is for their constituents.
    So, Mr. Waibel, thank you for being here. I too, I don't 
have an operation as large of yours, but we have calf, cow in 
Texas and a few pigs so I appreciate what you are doing. In 
your testimony, you discussed the disparities between urban and 
rural areas relating to access to high-speed internet. Can you 
discuss the challenges your community--and you have done that a 
little bit today--your community faces due to the lack of 
connectivity and how it puts them as an economic disadvantage 
compared to your urban counterparts?
    Mr. WAIBEL. Certainly. So, if I would go 30 miles to the 
east of here, we have a community of about 60,000 people. And 
certainly the businesses, when I go down there for whether it 
be parts or questions at my local FSA office, their internet 
service is just boom. And it is there whereas when I am at home 
here with my service, it--a lot of folks know that that there 
are times it will take me an hour to get an email into my 
computer at home here. And that is extremely frustrating. And I 
think, when we look at rural America, we need to be on a level 
playing field. This to me is the most important thing for the 
future of my boys farming with us or all my kids and my 
grandchildren to stay up to speed with whether it be a town of 
60,000 people or whether it be a town of 611 people, we need to 
be on the same playing field. This is going to set the future 
growth for our areas and the businesses that will hopefully 
establish and stay here in these small communities.
    Mr. WILLIAMS. Thank you. I agree with that.
    When we hear about small businesses adjusting to the 
digital economy, many of us think about brick-and-mortar retail 
stores creating an Online presence. However, one of the 
greatest beneficiaries of connected technology has been the 
agricultural industry. We have seen new innovations that have 
the potential to increase harvest yields, make watering 
schedules more efficient, and can update machinery 
automatically. All these advancements can help us better secure 
our food supply chain and properly feed our Nation. 
Unfortunately, if we continue to leave the rural parts of our 
country behind as we have heard, our farmers will not be table 
to experience the benefits of these new technologies.
    So, Mr. Waibel, again how does access to broadband improve 
your day-to-day business as a farmer? And what concerns do you 
have in the future of farming, if the divide is not closed? You 
touched on that a little bit, but I think that is important.
    Mr. WAIBEL. Yes, correct. You know, so, when I look at the 
whole operation, we are moving, we are in this digital age, and 
I think we are probably more--even though it seems like we are 
into it a long ways, I think the future is only going to demand 
more of it. And we use it just for everything. And it is only 
going to get more and more.
    For those of you that aren't that familiar with farming, 
when we go into the field, we push a button, our boundaries are 
in the field, and the tractor takes over and does what it needs 
to do. You are just in there for the ride basically and so on 
and so forth. So these types of situations, the more advanced 
our implements get and the more advanced our suppliers are, the 
more we are going to need to continue to have these high-speed 
updates that it doesn't take us an hour to get something; it 
takes us a minute, a second to get it. And that is where I 
think we really lack in rural America is the fact that we 
really need to get this sped up.
    Mr. WILLIAMS. Thank you.
    Real quick, access to broadband is no longer a luxury but a 
necessity. Big corporate providers have shown that the 
economics of connecting some of the most rural communities 
simply do not work. If we want to provide internet to these 
communities, we need to look for ways the Federal Government 
can better utilize the public-private partnerships. By 
leveraging public funding through private execution, we can 
tackle rural broadband infrastructure and close the digital 
divide.
    So, Mr. Sullivan, real quick, what barriers typically keep 
private citizens from entering into these partnerships? And how 
can we incentivize them to participate in Federal grants such 
as the USDA ReConnect Program to build out broadband 
infrastructure in rural communities?
    Ms. SCHAFFER. What has basically been happening is it is 
very difficult with some providers to work with them. In that 
type of arrangement, which is basically what has been happening 
in Maine and across the Nation now for quite some time is a lot 
of the existing providers have been receiving Federal and State 
subsidies to improve broadband. But they are not improving it 
to the level that it will in my 5 minute speech here about 
trying to make it future proof so that when we do these 
investments once, we don't do them multiple times because that 
is what has been happening. The existing ISPs are only going to 
put as much of their money in as they can keep their costs as 
low as possible to keep their stockholders happy. We understand 
that. That is how America works. But by investing public 
dollars with these partnerships without having minimums. They 
ought to have some standards that say we aren't going to give 
money unless you can provide a 100/100 fiber connection because 
we know that connection can be upgraded, as others have said, 
to a gig, to 10 gig, to 100 gig. I mean, that piece of 
investment will always be there. So it is important that when 
these ISPs are brought into a room, that they understand that. 
This is how we need to focus the dollars that are coming from 
the public because it should be there to serve the public.
    Mr. WILLIAMS. All right.
    Thank you very much, Mr. Chairman. My time is up. I turn to 
you.
    Chairman GOLDEN. Thank you, sir.
    We will next recognize Representative Troy Carter from 
Louisiana too.
    Mr. CARTER. All right. Thank you, Mr. Chairman. Thanks for 
the opportunity. And either of you can take a stab at the 
question. I hail there Louisiana where we have a fairly 
substantial amount of our rural areas that are in fact 
challenged as relates to broadband. And we know that, under the 
current guise of COVID, COVID taught us that we will be relying 
much more on distant learning in classrooms, technology for 
businesses. And that necessity brings the real attention to the 
fact that many parts of our State and our country, but 
particularly the Second Congressional District, we have issues 
with access to broadband from a basic standpoint, but then when 
we juxtapose that with the reality of poor people throughout 
our State, throughout our country that will in fact--and I have 
heard the word several times ``left behind'' mentioned by some 
of my colleagues. What are the plans for obviously making sure 
that we have access to broadband in those areas where there is 
no infrastructure? But, additionally, your thoughts on how we 
level the playing field for our impoverished areas as well. I 
am going to pick somebody, if somebody doesn't jump in.
    Ms. SCHAFFER. I think the piece we that do around on 
community planning is a central element of this because it 
allows the community to understand the importance of 
affordability. I think broadband has four pieces to it: the 
wire run by your house; can you afford to connect to that wire; 
do you have a device; and do you know how to use it? And when 
you began those community conversations, those last three 
pieces come in as a critical element of it. And then you can 
design a network and pick a provider and pick a partner that 
can give you that kind of connectivity. I think Danny talked 
about how Downeast they have, they are providing a high-quality 
service for about $60 per month. That is still unaffordable to 
some families, but it begins to address sort of that issue. And 
I think that that, to me, the critical piece about the 
community understanding and working with the provider and 
helping to underwrite some of the infrastructure costs helps 
some of those equations. But affordability is a key issue in 
this puzzle.
    Mr. CARTER. And what would you determine or think would be 
the greatest barrier, from an educational standpoint, of 
informing the public of their duty or their participation?
    Ms. SCHAFFER. So do you mean participation in a planning 
process or participation in getting internet?
    Mr. WILLIAMS. Well, you mentioned that a part of it was 
them understanding and participating. So what is the greatest 
barrier to that?
    Ms. SCHAFFER. Some of that is really--and I think COVID has 
resolved a little of this, is understanding what the internet 
can bring to you. I mean, Tim has talked about farming. The 
USDA estimates that the farms with high-quality internet have 
about an 18 percent increase in capacity. So they are able to 
produce a lot more. And that kind of activity can happen, as 
Matt talked about, on just about every business level for 
tourism, businesses in those. And so part of these 
conversations in the community is understanding the needs of 
all of those businesses and making sure that the business and 
people can engage in this understanding of what this service 
can bring to your area.
    Mr. WILLIAMS. And I will tell you from Louisiana's 
standpoint, and I don't think it is any different from many 
other places, but certainly Louisiana we know now that 
broadband is a way of life. It is not a luxury. It is not 
something you have as a one off. It is essential. Yet we know 
that large swaths of our country, large swaths of Louisiana do 
not have access to broadband, not just for education but also 
for daily use. We know that broadband in many ways fuels our 
whole economy. It connects our world.
    So, as we go on through this discussion, Mr. Chairman, I 
would Love to have further discussions on how we can advance 
those discussions, particularly around areas in those rural 
areas that have really suffered. And COVID has taught us 
significantly what that means to our economy and what it means 
it our world. So I thank you all for your testimony and look 
forward to further discussion.
    I yield back.
    Mr. SULLIVAN. I would like to weigh in on that for a 
second, if possible.
    Chairman GOLDEN. Who was that?
    Mr. SULLIVAN. I would like to weigh in on that point for 
just a moment.
    Chairman GOLDEN. He is out of time, but we will find a way 
to work it in, Mr. Sullivan. The second round of questions, I 
will just make a note.
    Next, we will recognize Representative Pete Stauber from 
Minnesota, Eighth District.
    Mr. STAUBER. I thank you, Chair, and thank you, Ranking 
Member Hagedorn, for holding this hearing. And, to all the 
witnesses who gave us their testimony, it is very, very 
valuable.
    I just have to reiterate what Mr. Waibel said a couple 
minutes ago. He said, ``Rural America must be placed on a level 
playing field.''
    Rural Representatives on both sides of the aisle have had 
it right up to here with the lip service we have been given on 
expanding broadband to rural communities. It is the time to do 
it right now. We have the opportunity for investment, and rural 
America especially, as Congressman Carter just stated, has been 
extremely devastated because of the lack of connectivity.
    Our hospitals need to be connected--our schools, our small 
businesses, and so many others in our rural communities--to get 
us on that level and fair playing field so we can be connected, 
so we can bring businesses to rural America.
    Mr. Waibel, in your testimony, you highlighted something 
that is critical for people to understand. Our small towns and 
communities in rural America have sat at a stark disadvantage 
for way too long. It has left our kids at a disadvantage, and 
the studies--our seniors at a disadvantage in their healthcare 
when we talk about telehealth and telemedicine. And, for 
certain, our farmers are at a disadvantage for optimizing their 
yield.
    You also mentioned that not only do rural Americans lack 
access to broadband; where some are lucky enough to have 
service, it is inconsistent and expensive, and lack of 
competition means there is nowhere else to turn.
    When we here in Congress are considering broadband 
investments and deployment options, we must be effective. 
Unfortunately, in President Biden's proposal, he prioritizes 
municipal broadband networks or government-owned networks.
    In my home State of Minnesota, however, we have 
restrictions against municipal broadband networks. In fact, 18 
States total have restrictions against such networks. I guess 
my constituents in Minnesota's Eighth Congressional District 
and Mr. Hagedorn's constituents, like Mr. Waibel in Minnesota's 
First Congressional District in Minnesota, and many other rural 
Americans take a back seat under this piece of legislation. We 
count, and rural America matters.
    So what is the good news? In the CARES Act and the 
consolidated appropriations signed into law by President Trump, 
we were able to get a lot of money out the door to help bridge 
the gap in rural America. The money was unfettered by 
burdensome regulation and helped stimulate private investment. 
This was a step in the right direction.
    In these packages, a lot of different Federal agencies had 
been tasked with the broadband deployment mission. This can be 
tricky for some small businesses to navigate as we all know. 
That is why I will soon be introducing the Small Business 
Broadband and Emerging Information Technology Enhancement Act.
    This legislation will direct the Small Business 
Administration to create a broadband coordinator position that 
will serve as the primary liaison to other Federal agencies 
involved in broadband deployment and would identify and catalog 
tools, training, and best practices for small businesses as it 
relates to broadband implementation and usage.
    It is my hope that legislation like mine and others will 
help bring broadband investment to our rural communities, to 
that last mile for economic development. The CARES Act gave us 
a great start, and I think we need to take advantage of it.
    I know that Chair Golden and Ranking Member Hagedorn 
understand that. They both represent rural districts. And, 
Chair Golden, as you alluded to, we did hear that we had a 
field hearing on broadband development and deployment a year 
and a half ago. In northern Minnesota and in upstate Maine, it 
was the same concerns by our small businesses, our families, 
our family farmers, and we have the opportunity right now to do 
it right.
    And, Mr. Waibel, I want to repeat what you said earlier. 
Rural America must be put on a level and fair playing field 
now, and we have the opportunity. And I know we have bipartisan 
support in the Congress to do that, and I am looking forward to 
that.
    Mr. Chair, I yield back.
    Chairman GOLDEN. Thank you.
    Next, we are going to recognize Representative Antonio 
Delgado from New York 19. I see him on the screen. I am not 
sure if he has questions. We will give him 2 or 3 seconds here.
    All right. We will come back to him.
    Why don't we move to another part of New York, Rep. Claudia 
Tenney.
    Ms. TENNEY. Thank you so much, Chairman Golden and Ranking 
Member Hagedorn, for holding this important meeting today, and 
thank you to the witnesses for your time and your insight.
    As we have we have heard today, the internet connection can 
determine your destiny, and nothing shapes our ability to 
access education, healthcare, and employment opportunities like 
access to rural broadband. The COVID-19 pandemic has only 
driven home this point.
    Americans have never relied more heavily on reliable, 
accessible, and affordable internet than they do today. 
Throughout New York's 22nd Congressional District, there are 
far too many communities who do not have access to reliable 
broadband.
    The digital divide is even more great when you consider our 
children have less access to education, our seniors have less 
connectivity with their doctors, and our business meetings are 
few and far between because we are always spooling on our lack 
of access to the internet.
    And, to make matters worse--this, I think, is a critical 
issue--upstate New York is subject to a broadband monopoly in 
New York. New York State, under Governor Andrew Cuomo and the 
State legislature, agreed to a cable consolidation plan under 
an agreement with Spectrum, which they claimed that expanded 
improved service. However, the State and New York State's 
Public Service Commission have absolutely failed to enforce the 
agreement.
    This has left too many rural customers in my district with 
nonexistent broadband service or service that is far too 
expensive. Just this week alone, Spectrum has raised their 
rates seven times in just a few years on New Yorkers.
    The only solution is to increase competition in our 
internet marketplace. This means enacting policies that steer 
investment to smaller upstart providers and reducing barriers 
to entry.
    We must also encourage networks that can host multiple 
internet service providers so someone's geography does not 
limit their choice. I think we can work on closing this 
internet gap and provide choice once and for all to upstate New 
Yorkers.
    One thing I wanted to ask, I know, Ms. Schaffer, I wanted 
to ask you this because you pointed out a couple important 
things about getting access to internet. I just first wanted to 
ask you about how the FCC data can--the data on broadband 
coverage and how it speeds--affects speeds is inaccurate. These 
maps are often pivotal to determine if a project is eligible 
for Federal funding.
    This was raised to me in a recent broadband hearing I had 
in my own town of Sherburne, New York, where our business is 
located. From what your experience is, can Congress work with 
the FCC to resolve this, and can we give some of this 
determination on where we are going to allow speeds--can we 
give that back to our local communities?
    Ms. SCHAFFER. Yes and yes.
    So the FCC map is based on advertised speed by Census 
block, where one home in a Census block is served, then the 
entire Census block is considered served. So that gives--you 
know, there are Census blocks in rural America that are many 
hundreds of miles, and if one location is served or could 
reasonably be served, then that entire Census block is served, 
and it is no longer eligible for any Federal funding.
    That really puts a--you know, it--that shuts off an 
opportunity for those--that area to get funding. They have to 
then rely on either local funding or State funding to fill that 
hole. And really to get these projects done, you need a capital 
stack. You need some Federal money, you need some State money, 
you need some local money, you need ISP money. That is really 
how rural America is going to get served.
    And, you know, one of the things that I recommended in my 
testimony is moving this new Federal funds directly to State 
programs because State programs are much more responsive to 
what is happening.
    Our State has a standard--broadband standard of 100 over 
100 and an unserved standard of 50 over 10. So we have 
recognized the importance of connectivity. And, if Federal 
funding flows to States, then States can really craft projects 
and with the local people that meets the local solutions and 
deals with----
    Ms. TENNEY. Let me just----
    Ms. SCHAFFER.--many of these issues.
    Ms. TENNEY. Let me just reclaim my time for a minute, 
because I am running short.
    I wanted to emphasize I am concerned about the situation in 
New York State where we continue to put millions of dollars 
into providing a virtual monopoly to Spectrum Cable, which has 
been a huge problem. When I served in the State Assembly, there 
was a former Congressman named Chris Gibson in my other 
district.
    We put tons of money into broadband, and it didn't go 
anywhere but to these large entities, and now we have a 
problem--continuing to have a problem with rural broadband. My 
question is, how do we get the local governments to be able to 
participate in this?
    And, also, the village of Sherburne has been designated as 
a test site to allow this municipal concept that is part of the 
bill that--the infrastructure bill President Biden has 
proposed, but also give choice and an opportunity for our 
consumers to choose their internet and to have actually access 
to broadband with minimal rates of speed as determined by the 
last farm bill?
    I have run out of time. I apologize. I have to catch up 
with you on another question.
    I yield back, Mr. Chairman.
    Chairman GOLDEN. Thank you.
    With that, I think we are going to move to a second round.
    Mr. Hagedorn, do you have further questions?
    Mr. HAGEDORN. Yeah, sure.
    Chairman GOLDEN. Okay. Go ahead. I am going to ask some, 
too, but I will let you go first.
    Mr. HAGEDORN. All right. Thank you, Chairman.
    I think I want to associate myself with Congressman 
Stauber's comments and, to a degree, also Representative 
Tenney's comments on the Biden proposal.
    I mean, from my standpoint, if you are going to have 18 
States that just can't participate because they already have 
restrictions on these municipal broadband networks, that is 
pretty darn serious. I don't know why they would put that 
forward when basically a third of the country is shut out. I 
guess they are trying to be a little top-down on that one. I 
disagree. So I think what Congressman Stauber said there was 
right on target.
    And, also, the telemedicine, I mean, really, if we have 
seen anything here in the last year, it is how that has 
expanded and the need for it. And the hospitals and providers 
have really dug in, and I think the people have accepted it. 
And so, from the standpoint of Congress, we need to make sure 
that those reimbursements are there. I think this is one of the 
few good things that came out of the coronavirus situation, is 
the advent of telemedicine.
    In the State of Minnesota, every once in a while, we have 
inclement weather, believe it or not. What about Maine? I think 
same thing in Maine, right? And so, when that happens, it is 
easy to still go see your doctor, but also makes it more 
efficient for them, seniors, disabled, you name it.
    Mr. Waibel, what do you think about telemedicine? Has it 
taken off a little bit in your community? Are you seeing more 
and more of it? Will it help the people in the rural areas?
    Mr. WAIBEL. Absolutely. So one of my daughters is an RN at 
a local senior citizens' living place. And, anyway, you know, 
so that was used quite a lot during the pandemic for her 
patients and clients where she works. And I think, you know--I 
even actually used it, too, one time. And it is certainly--it 
is a great option to have and something that, again, is going 
to be used more and more in the future, I believe.
    Mr. HAGEDORN. Thank you.
    Mr. Dunne, in your studies and the work that you are doing, 
do you see job migration going from urban areas to rural areas 
if we can have them on par as far as digital connectivity?
    Mr. DUNNE. We absolutely have. There was a lot of movement 
pretty early in the pandemic, and, as I think another witness 
mentioned, people realized, boy, you know, going back to small 
towns might be a lot better than being shoehorned into larger 
cities.
    But they need to be able to continue their aspirational 
jobs. Many times, unfortunately, the narrative has become, if 
you want to stay in your, you know, the community that you 
love, you have to give up that aspiration and those goals to be 
able to do things on a national or global basis.
    If you have broadband, that is not the choice you have to 
make. You know, the young people who have been supported by 
those communities to be able to go off to college can come home 
and participate and sometimes bring their jobs with them or 
create new businesses based on the experiences that they have 
had both in that community and in their experiences outside of 
it.
    So we do see this as a moment to reverse the population 
decline that really we only saw for the first time in a 
generation in 2011, 2012, and 2013. Even the farm crisis didn't 
lead to a net population loss.
    So we are at a moment where we need to move quickly. COVID 
has created that opportunity, but we need infrastructure like 
future-proof broadband in order to make that a reality.
    Mr. HAGEDORN. I appreciate that.
    Mr. Sullivan, I want to ask you just a little bit more 
about your experience. It is pretty fascinating.
    You are serving some rural communities, but what about the 
outlying areas where you may have farms. Are you also able to 
run the fiber to those locations?
    Mr. SULLIVAN. Yes. When we started this project, we made 
the commitment or the towns made the commitment that every 
single person who had a telephone pole within reach of their 
home would be served. So, right now, we have got about 99 
percent of both those towns are served. We have got two 
outlying areas similar to what you are talking about that we 
are working on right now. So, by the end of this year, they 
will be connected as well.
    So we have got some stretches where we go 6, 7, 8 miles to 
get one house.
    Mr. HAGEDORN. Well, if Congress wanted to help and make 
what you do a demonstration project or expand it, what could 
the Federal Government do in order to be helpful, other than 
maybe get out of the way?
    Mr. SULLIVAN. I think a better understanding of, you know, 
what is actually happening out there. And I am going to pick up 
a couple of points, one from the Representative in New York 
about the cable monopoly there.
    That situation is--was allowed to happen. Cable companies 
don't compete with anybody. They have got their own highways. 
They just basically do what they want, so that is difficult for 
other ISPs to come in. So competition doesn't exist.
    That is another piece that is another important aspect to 
this, is the--to the ranking committee member's comment there 
about getting some service to somebody or to everybody, I have 
been teaching old and young and rich and poor for over 45 
years, and I can tell you, once you drag them over the digital 
divide, you get them working, if you build them a network that 
doesn't work, they are frustrated, they are angry, and they 
won't use it.
    It will cause more issues by giving them just something 
because the way it works now, without symmetrical connections 
up and down--there is more and more stuff being done with 
cloud-based computing; you have got to have those uploads. And 
those copper-based networks of cable, fixed wireless, satellite 
don't have the capacity to do that, and you will basically be 
wasting money after money has already been wasted.
    Mr. HAGEDORN. Thank you. My time has expired. Appreciate 
it.
    Chairman GOLDEN. Thank you. I think Mr. Sullivan has talked 
about that a lot. Nothing more frustrating than seeing your tax 
dollars get put to some kind of internet solution, and then you 
still get the spinning wheel, whether you are a student or a 
small business owner.
    So, Representative Williams, did you want to ask further 
questions?
    Mr. WILLIAMS. Sure.
    Thank you, Mr. Chairman.
    Ms. Schaffer, a recent article by the Technology Policy 
Institute pointed out that, as the bar gets higher, more areas 
become eligible for subsidies while the costs of serving the 
truly unserved increases.
    Do you agree with this statement?
    Ms. SCHAFFER. Well, no. Actually, I mean, I think that--you 
know, this is infrastructure that is going to last 50 years, so 
we should build infrastructure that is going to meet the 
demands of people for 50 years. And, as I said, when you look--
you know, we run a grant program, and, when you are looking at 
providing grants, there are many, many ways through scoring 
that you can really give advantage to areas that have really 
bad broadband.
    But it is important when they build it, that they bring it 
up to a standard that is going to be essentially future-proof, 
and that is what we try to do with our grant program. So I 
think you can manage this pretty easily through a grant process 
to make sure that the people who have the worst service have 
the best opportunity in a competitive grant to get better 
service.
    Mr. WILLIAMS. Let me have a followup to you.
    How do we ensure that we continue to focus deployment for 
unconnected areas rather than upgrading systems that are 
already in place?
    Ms. SCHAFFER. So, you know, one of the definitions of--when 
you--even when the FCC defines 25/3 as served, people who have 
less than 25/3, you know, are still eligible for that Federal 
funding. So you are going to overbuild that network because we 
know it doesn't meet today's standards.
    And so I think it is important when we look at this to 
understand that, first off, the incumbent provider is the most 
likely to build--to rebuild their network because they are 
there already. So they have the customers, they have the 
structure, and so providing opportunities for the incumbent 
provider to improve their service, by overbuilding their own 
network, shall we say, with better service, is really critical.
    And so that is part of trying to figure out how we get 
better service to these people. It is not just--every time we 
are building networks, it is not like we are bringing--we are 
not often bringing in a new provider. We are usually providing 
the small local incumbent provider who has been there for a 
long, long time the ability to upgrade service that they 
already have to the customers they already have.
    So overbuilding is really about improving service to 
customer bases. Sometimes that is the existing provider that 
does it. And, if the existing provider doesn't want to do it, 
then sometimes it is bringing in a new provider. But it is 
making sure, at the end, with Federal dollars and State 
dollars, taxpayer money, that you are providing a service that 
can meet the needs of that area for now and into the future.
    Mr. WILLIAMS. Okay. Thank you for your testimony, and I 
yield the remaining time back to the Chairman.
    Chairman GOLDEN. Thank you, sir.
    Representative Carter, I think you want to give Mr. 
Sullivan a little more time.
    Mr. CARTER. Yeah. Sorry. I think Mr. Sullivan indicated he 
wanted to respond to one of my questions, but we were out of 
time.
    Mr. SULLIVAN. Right. I was going back to the--to the idea 
about--I kind of answered some of this previously, but we were 
speaking about the rural areas and the poor areas where people, 
you know, can't afford the service even if it is there. It is 
important that the service we do provide everybody in America 
is one that works, and that is what I mentioned previously.
    That is what I was--kind of shoehorned in my answer to your 
question when you ran out of time. But basically my answer to 
that is that we need to build networks that work and that will 
work for the next 50-plus years, as Peggy said. Doing something 
less than that will just frustrate us 5 years down the road.
    Mr. CARTER. But would you not agree that, in 2021, the 
infrastructure for broadband is as essential as water, 
plumbing, electricity? I think we have to be realistic and talk 
about those things that are meritorious of funding. And I don't 
think we have the luxury. This is not Republican or Democrat. 
If there is anything that has ever been bipartisan, broadband 
for our country is certainly a bipartisan issue that we can no 
longer afford to kick the can down the road.
    I feel the frustration of many of my colleagues who have 
had it up to their ears with shoddy broadband or no broadband 
at all.
    Mr. SULLIVAN. Well, that is what we did with the Downeast 
Broadband Utility, is we built a utility that is similar to 
roads, you know, sewer, water. It is a piece of infrastructure 
that we know is not going away. It is only going to get more 
and more used. It is going to need more and more robust nature 
where--fiber will do that. That is why we are such big 
proponents.
    And, if you look here in Maine--and this isn't just Maine. 
I have been contacted across this entire country by people that 
want to set up competitive municipal networks where multiple 
ISPs come in and fight for your business. It drives costs down. 
It improves service. I mean, it is basically the American 
competitive way.
    We have allowed forever cable companies to monopolize. We 
have enabled phone companies to monopolize. You know, we--the 
cable company that--we have Spectrum in Maine. We don't have 
Comcast. They don't fight with each other. Comcast says: 
Listen, you take New Hampshire; and, Spectrum, you can have 
Maine.
    That doesn't bring, you know, good service to our citizens. 
And I--again, I said in my testimony, a private business should 
be allowed to do what they want with their own money, but we 
are talking about our money, everybody in this room and 
everybody across this country. And I think it is incumbent on 
all of us to be in the room when these dollars are being talked 
about and not just have the existing ISPs in there pulling the 
ears on legislators and people who make the decisions.
    You have got to get the rank and file. Bring those farmers 
in.
    Mr. CARTER. Thank you.
    I yield back, Mr. Chairman.
    Chairman GOLDEN. Thank you.
    Mr. Sullivan, I was actually going to ask just a followup 
on Mr. Hagedorn. You talked about how you are getting service 
to every door in your community, including, you know, the ones 
down the long dirt driveways in the most rural of areas. But 
what about the technology Mr. Waibel was talking about with 
tractors and such?
    Can we provide that type of coverage with fiber like what 
you talk about, or is that a satellite-only solution?
    Mr. SULLIVAN. Oh, wouldn't I--oh, I am so glad somebody 
asked that question. I have been spouting this forever.
    If America put fiber on the telephone poles like we did 
electricity to every single pole in this country, we could 
probably eliminate 80 percent of your ugly cell towers out 
there. You can run little mini antennas. Cell towers always 
have to connect back to a fiber connection. That is how it 
works. There is a few that use microwave, but, by and large, it 
is all going back to fiber.
    You can put the ubiquitous coverage all over your farms. 
You could put them in your distant forests. You could put it 
across this entire Nation. We just--we need to have a focus 
that says, Let's look at this like electricity. I know that is 
like--everybody is bored to death with hearing that analogy. 
But it basically is it. We have got to hang these fiber cables 
across the entire Nation, and we will solve a multitude of 
problems.
    Chairman GOLDEN. Thank you.
    You know, this is a great--really is, I think, a helpful 
hearing. There is a lot of proposals out there. I know--you 
know, there has been some discussion about the Jobs Plan put 
out there by the White House, but there is also some work being 
done in the Senate, and I think recently they announced--Mr. 
Waibel, you talked about Representative Thompson's bill. I 
haven't seen it, so I will have to look at that.
    And then I am a member of the Problem Solvers Caucus, and 
we have got a different infrastructure proposal that includes 
some broadband as well.
    So plenty of room for good compromise.
    Some of the stuff, like today, I mean, through what I have 
seen in Calais and Baileyville, Maine, I have become a great 
believer in what Mr. Sullivan has worked on with trying to 
empower localities to take--empower themselves, owning that, 
you know, fiber for themselves. And you have done it in a 
really unique way, like you said, without raising taxes and 
without Federal dollars. It is locally owned.
    Ms. Schaffer, I am impressed by the way that your 
organization works with the State to leverage private and local 
matches, getting the most out of the Federal dollars that are 
being sent into Maine. So I think that is something important 
for us to look at as well.
    And I just had to quickly comment. When you were talking 
about advertised speed, man, that is an old problem and one we 
talked about in the last Congress, and hopefully we can 
continue to improve upon that.
    I don't--what is the solution there? Is it--I mean, 
obviously just one firm, one house is the problem. Is it a 
percentage of people served in the Census block have to have 
true access to advertised speed? I mean, how would you unravel 
that problem?
    Ms. SCHAFFER. Well, first, I wouldn't use advertised speed. 
I would use actually delivered speed, because there is a big 
difference. What people can advertise and what they can deliver 
are two--often two different numbers.
    And, really, one of the things that we know about broadband 
is it is--you really need granular data. You need it down to 
the street level. And Census block level is just not enough.
    One of the things that we are doing in Maine and they are 
doing in Minnesota is we are doing a crowdsource speed testing 
to help inform our data decisions as well as the other data 
that we are collecting. The FCC is starting to do that kind of 
work, but it is really important that you--when you look at 
that kind of data, you are including a customer's voice, you 
are including what they are actually getting at their house in 
the larger picture of what the data--what the service is 
available.
    So I would not do--I would not do advertised speeds. I 
would do it at a--the closest you can get to the street level. 
And the other piece is that you should really audit what 
companies are telling you that they are--can provide. So they 
say they can provide X. Are they actually providing it? And 
crowdsource speed testing is one way you can do that.
    Chairman GOLDEN. Thank you.
    You know, one thing I have to say about Maine that is 
unique is, when we talk about small towns, like, we are talking 
about very small towns. As you know, the largest community in 
Maine's Second Congressional District is Lewiston. That is, you 
know, about 30,000 people. That is our biggest population 
center.
    But there are, you know, 350 other towns, and some of them 
are very small. So that is why we need that flexibility, I 
think. And some of these programs are why, as you said, your 
organization can be a good approach, or the one like Mr. 
Sullivan's community has taken upon themselves.
    But I wanted to ask quickly, last question for me anyway, 
Mr. Dunne, I see that you--CORI is looking at doing work in 
Waterville, Maine. How do you find and invest in communities as 
part of the Rural Innovation Network, and as, I guess, a good 
example, why Waterville?
    Mr. DUNNE. Sure. So Waterville is an extraordinary 
community, as you know, that has gone through a transition from 
being a manufacturing community to something else. And it was a 
tough transition when the textile mills closed and the like.
    But a group of leaders, including the Central Maine Growth 
Council and some unofficial leaders who just redeveloped some 
of those old mill buildings, created cowork spaces, and just 
started making things happen on their own. And there has also 
been some real leadership from Colby College. And your small, 
4-year, you know, liberal arts colleges don't always step up to 
be engaged in their community.
    Colby College really is, because they know it is critical 
to their future, their ability to attract faculty in the future 
and to be a world-class college.
    So, when we saw all those things coming together and the 
beautiful cowork spaces, the redeveloped mill building that is 
where Bricks is located, we saw an opportunity. We partnered 
with them to help them put together a real strategy plan and to 
be able to then apply for federal EDA funding through the Build 
to Scale program, which they received.
    And so they got some state funding help. They got some 
federal funding help. They got local energy that is happening, 
and they are in the process of building a high-tech accelerator 
program for new businesses. They are doing training programs. 
They are engaging students and faculty and folks locally who 
are looking for new economic opportunities.
    So they found us, and we have just been delighted. We are 
also continuing other conversations with communities in Maine 
as well.
    Chairman GOLDEN. Thank you. I appreciate that.
    Any further questions? All right.
    Well, I want to thank all of our witnesses again for 
joining us today. Your testimony has highlighted how crucial 
reliable broadband access is just critical to the small 
businesses all over the country, particularly in our rural 
areas. So the internet has revolutionized the way that many 
small businesses operate. It has allowed them to reach 
customers in new markets and save money via new technologies.
    The longer certain small businesses don't have reliable 
internet access, unfortunately, the further they fall behind. 
That is why, here in Congress, we need to work together to find 
solutions that facilitate the expansion of broadband 
infrastructure.
    As we consider broadband infrastructure proposals, we have 
got to look to update our digital infrastructure for the 21st 
century.
    I look forward to working with my colleagues in Congress on 
closing the digital divide and evening the playing field for 
small businesses.
    With that, I would ask unanimous consent that members have 
five legislative days to submit statements and supporting 
materials for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned.
    Thank you.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
